Audit of USAID/Nepal’s Training, Use and
Accountability of Cognizant Technical Officers
(CTOs)

Report No. 5-367-04-002-P

December 19, 2003




             Manila, Philippines
December 19, 2003


MEMORANDUM

TO:           USAID/Nepal Director, Donald B. Clark

FROM:         RIG/Manila Bruce N. Boyer /s/

SUBJECT:      Audit of USAID/Nepal’s Training, Use and Accountability of
              Cognizant Technical Officers (CTOs)
              (Report No. 5-367-04-002-P)

This memorandum transmits our final report on the subject audit. We reviewed your
comments to the draft report and included them (without attachments) as Appendix
II to this report.

This report includes four recommendations to help USAID/Nepal adopt practices to
improve CTO training and to hold CTOs accountable for the performance of their
CTO tasks. Based on your comments to the draft report, we consider that final
actions have been taken for all four recommendations and they can be considered
closed on report issuance.

I want to express my sincere appreciation for the cooperation and courtesy
extended to my staff during the audit.




                                                                               1
(This page intentionally left blank)




                                       2
Table of   Summary of Results.................................................................................................5
Contents
           Background ..............................................................................................................5

           Audit Objectives ......................................................................................................6

           Audit Findings .........................................................................................................6

                      Did USAID/Nepal provide adequate training
                      and guidance to its cognizant technical officers
                      to help ensure that they were aware of and
                      capable of performing their responsibilities?...............................................6

                                 Mission Needs to Provide More Cognizant Technical Officer
                                 Training ............................................................................................8

                      Did USAID/Nepal hold its cognizant
                      technical officers accountable for performing
                      their responsibilities in accordance with
                      USAID policies and regulations?...............................................................10

                                 Mission Needs to Evaluate Cognizant Technical Officer
                                 Performance ...................................................................................11

           Management Comments and Our Evaluation ........................................................13

           Appendix I - Scope and Methodology ...................................................................15

           Appendix II - Management Comments..................................................................17




                                                                                                                                     3
(This page intentionally left blank)




                                       4
Summary of
              The Regional Inspector General/Manila conducted this audit to determine whether
Results       USAID/Nepal provided adequate training and guidance to its Cognizant
              Technical Officers (CTOs) and held them accountable for performing their
              responsibilities (page 6).

              The audit found that USAID/Nepal provided adequate guidance to its CTOs, but
              needed to provide them more training to ensure that they not only understood the full
              range of assigned tasks but also had the competence and confidence to perform these
              tasks successfully (pages 6 and 8).

              Further, USAID/Nepal did not hold most of the CTOs tested accountable for
              performing their CTO-related responsibilities because key personnel records (such
              as position descriptions, evaluations, etc.) generally did not refer to those
              responsibilities (pages 10 and 11).

              This report includes four recommendations to help USAID/Nepal adopt practices
              to improve CTO training and to hold CTOs accountable for the performance of
              their tasks (pages 10 and 13).

              In response to the draft report, USAID/Nepal outlined the corrective actions taken
              for all four recommendations. The Mission’s comments (without attachments)
              are included as Appendix II to this report (pages 17 to 19).

              Based on the Mission’s comments, final actions have been taken for all four
              recommendations and they can be considered closed upon report issuance (pages
              13 and 14).


 Background   USAID uses the term Cognizant Technical Officer (CTO) in lieu of other
              commonly used U.S. government terms, such as contracting officer’s technical
              representative or contracting officer’s representative. The term denotes that the
              individual may be responsible for certain defined actions involving awards such
              as grants, cooperative agreements, and contracts. Those actions generally are
              defined in a letter in which a contracting officer designates an individual to serve
              as a CTO.

              As a practical matter, contracting officers rarely have sufficient time or technical
              expertise to ensure successful administration and completion of all aspects of each
              award. They, therefore, rely on CTOs to act for them with respect to certain
              critical administrative actions and technical issues that arise under awards. It is
              the CTO's responsibility to ensure, through liaison with awardees, that the terms
              and conditions of the acquisition and assistance instrument are accomplished.
              Thus, CTOs fulfill a vital role in USAID’s acquisition and assistance process.



                                                                                                 5
                   As of April 2003, USAID/Nepal had 13 designated CTOs: one U.S. Foreign
                   Service Officer and 12 personal services contractors (PSCs). Eleven of the
                   personal services contractors were local nationals and one was a U.S. citizen.
                   According to information provided by the Mission's contracting office, these
                   CTOs were responsible for managing awards estimated at $24 million.


Audit Objectives   This audit was conducted as part of the Office of Inspector General’s worldwide
                   audit of the training, use and accountability of Cognizant Technical Officers, and
                   it was designed to answer the following questions.

                   •   Did USAID/Nepal provide adequate training and guidance to its Cognizant
                       Technical Officers to help ensure that they were aware of and capable of
                       performing their responsibilities?

                   •   Did USAID/Nepal hold its Cognizant Technical Officers accountable for
                       performing their responsibilities in accordance with USAID policies and
                       regulations?

                   Appendix I contains a discussion of the audit's scope and methodology.




Audit Findings     Did USAID/Nepal provide adequate training and guidance to its Cognizant
                   Technical Officers to help ensure that they were aware of and capable of
                   performing their responsibilities?

                   USAID/Nepal provided adequate guidance to its Cognizant Technical Officers
                   (CTOs), but needed to provide them with more training to ensure that they not
                   only understood the full range of assigned tasks but also had the competence and
                   confidence to perform these tasks successfully.

                   For the purposes of this audit, we considered adequate guidance to be the creation of
                   an environment where CTOs had access to resources to help solve their problems,
                   where CTOs were informed of their training options, and where management
                   facilitated training. We considered adequate training to mean that employees
                   completed the required training to be certified as a Cognizant Technical Officer
                   within one year of being designated as a CTO.

                   USAID/Nepal provided guidance to help ensure that CTOs were aware of and
                   capable of performing their responsibilities by establishing regular communications
                   with CTO supervisors and contracting staff, by providing access to other resources,
                   and by implementing a system to identify and provide training to staff.




                                                                                                        6
USAID/Nepal CTO supervisors and staff from the contracting office provided
regular guidance to CTOs. Supervisors, for example, provided day-to-day direction
to CTOs, and they were involved in identifying training for their staff. The
contracting staff also provided support to CTOs. For example, each CTO was
assigned to one of the four contracting specialists. As a result, all 13 CTOs had
daily access to their designated contracting specialist for assistance with their CTO
duties. Finally, the regional contracting officer provided guidance through routine
visits or telephone and email communications.

USAID/Nepal also provided guidance to its CTOs in other ways. For example,
the regional contracting officer used CTO designation letters to assign individuals
to be CTOs. These letters spelled out the CTO duties and responsibilities that
designated individuals were expected to carry out. Further, to ensure that
implementing partners also understood the roles of its CTOs, USAID/Nepal
provided the implementing partners with copies of the designation letters.
Additionally, CTOs noted that they had access to other resources to help them
solve problems such as the Federal Acquisition Regulations, USAID Acquisition
Regulations, and Contract Information Bulletins.

USAID/Nepal had implemented a system to identify the training needs of its staff.
Under this system, office chiefs would prepare annual office training plans.
These office training plans would then be rolled up into the Mission’s overall
training plan. A training committee would then review and approve the office
training plans and the overall Mission training plan. The Mission’s personnel
officer, as the designated training coordinator, was responsible for maintaining the
Mission’s overall training plan, providing information on training opportunities,
and for career-development counseling. Although not specific to CTO training,
this system encompassed CTO training.

USAID/Nepal’s training system included obtaining input from staff about their
training needs and providing funding. For example, the Mission arranged for two
CTO training courses to be given in Nepal. The first course was held in June 2002,
while the second course was scheduled for July 2003. According to its officials, the
Mission spent $56,115 on CTO training in fiscal year 2002. An additional $44,184
had been budgeted for fiscal year 2003 including the course scheduled for July 2003.

Although the Mission created an environment that promoted CTO training, CTOs
reported that they needed additional training in many of the core competencies
established by USAID. Additionally, contracting staff also reported that CTOs
could benefit from more training. The need for the Mission to provide more CTO
training is further discussed below.




                                                                                   7
Mission Needs to Provide More
Cognizant Technical Officer Training

Contrary to the requirements published by the Office of Federal Procurement Policy
(OFPP) and USAID’s Automated Directives System (ADS), USAID/Nepal did not
provide enough training to its CTOs to ensure that they understood and could
perform the CTO tasks assigned to them. All 13 CTOs responding to a
questionnaire reported that they needed additional training in the basic CTO
competencies. This occurred because USAID/Nepal had not adequately monitored
and maintained its training plans for CTOs. As a result, the Mission’s CTOs
required additional training to equip them with the knowledge and skills needed to
adequately perform core CTO responsibilities.

OFPP Policy Letter No. 97-01, dated September 12, 1997, requires agencies to (1)
identify and publish model career paths, (2) establish education, core training, and
experience requirements for their acquisition workforce, and (3) develop
mandatory education, training and experience requirements to ensure that
individual members of the workforce possess the core competencies required of
the position. According to OFPP, the “acquisition workforce” includes
contracting and purchasing officers, contracting officer representatives (CORs),
and contracting officer technical representatives (COTRs). Further, OFPP defines
“core competencies” as those in the Federal Acquisition Institute’s COR/COTR
Workbook. USAID uses the term CTO rather than COR or COTR.

ADS 202.3.1.2(c) entitled Achieving, acknowledges OFPP’s training requirements
and discusses how USAID officials should comply with them. However, it also
recognizes that there may be times when it is necessary to nominate an individual
to become a CTO who does not have the mandatory training required by OFPP.
In these cases, the operating unit should develop a written plan that allows the
individual to receive the necessary training as quickly as possible in order to
obtain these competencies and subsequent certification.

USAID has developed a series of courses designed to provide CTOs the basic
knowledge and skills they need to effectively administer contracts and assistance
instruments. After completing these courses, CTOs are certified. The first courses
of the new curriculum were held in October 2002 and schedules for fiscal year 2003
were advertised. Missions were advised to contact USAID's Learning Support
Training Division in order to arrange training for their CTOs. Under USAID’s new
plan, designated CTOs will be expected to take the required courses for CTO
certification within one year of being designated as CTOs. Although the one-year
time limit did not exist at the time of the audit, we considered it to be a reasonable
standard.

However, as shown by Table 1 on the next page, a significant number of
USAID/Nepal’s 13 CTOs believed that they still needed training specific to certain



                                                                                    8
core competencies. Contracting staff also reported that CTOs could benefit from
more training in the following areas: acquisition and assistance management,
contracting ethics, and USAID policies and procedures.

Table 1: Number and Percentage of CTOs Responding to an OIG
Questionnaire Who Said They Needed Additional Training in Selected
Competencies Required to Administer Contracts, Grants, or Cooperative
Agreements
                                                                                                         CTOs
                                                                                                  Who Said They Needed
                                                                                    No. of CTOs      More Training
                            Competencies for CTOs
                                                                                     Responding
                                                                                                     No.        %

                        Required Competencies for Contracts
Knowledge of contracting law and regulations (such as rules of competition, the
                                                                                         12           9         75
types of contracts and when they should be used)
Knowledge of government "agency" including the limitations and requirements
of representing the government, "implied agency" and communications with                 12          11         92
contractors
Knowledge of contracting ethics including conflicts of interest and security
                                                                                        12           10         83
requirements
Ability to develop contract requirements, conduct market research, and prepare
                                                                                        11           11         100
requirements documents and statements of work
Ability to request/assess bids and proposals including preparing solicitations,
developing contract incentives and objectives, developing criteria for evaluating       12           11         92
proposals, evaluating proposals, and assessing contractor past performance
Ability to conduct price and cost determinations including establishing the
                                                                                        12           11         92
Government’s initial cost estimate and determining prices and fees
Ability to monitor contractor performance, provide technical guidance, assess
                                                                                        12           10         83
quality and timeliness of performance, make scope determinations, etc.
Ability to process contracting actions (task orders, invoices, change actions,
                                                                                        12           11         92
modifications, ratification, etc.)
Knowledge of USAID source origin/nationality requirements                               12            9         75
Ability to keep appropriate records and status reports (to track orders and
                                                                                        12           10         83
deliverables, time charges, etc.)
Ability to administratively approve vouchers for payment on contracts                   12           9          75
Ability to closeout, terminate contract appeals and protests                            12           10         83
        Required Competencies for Grants and Cooperative Agreements
Knowledge of the required elements of an award                                          13           10        77
Knowledge USAID’s policy on competition                                                 13           10        77
Knowledge of types of assistance instruments                                            13           9         69
Knowledge of USAID source origin/nationality requirements                               13           7         54
Ability to process closeout procedures                                                  13           10        77
Ability to monitor and evaluate recipients’ performance during award period to
                                                                                        13           10        77
facilitate the attainment of program objectives
Ability to review and analyze performance and financial reports and verify timely
                                                                                        12           8         67
delivery


USAID/Nepal did not provide sufficient training to its CTOs because it did not
adequately monitor and maintain its training plans to ensure that CTOs took the
training they needed to become certified within one year of being designated as
CTOs. Eleven of the Mission’s 13 CTOs reported that they had been performing
CTO duties for at least one year. Review of Mission records showed that 10 of
the 11 had not completed the training needed to be certified. Further, 5 of the 10
had not received any CTO training. Although the Mission’s training plans did list



                                                                                                                         9
the courses that 11 of its 13 CTOs needed to become certified, they often did not
indicate when or where the training would be obtained. The Mission did not have
any training plans for the remaining two CTOs even though both had been CTOs
for at least one year.

CTOs who understand their roles and responsibilities contribute to a proper and
efficient procurement process. Although the Regional Legal Advisor reported
that for the past two years he had not experienced any CTO-related problems in
Nepal, USAID/Nepal contracting staff cited examples where CTOs had not fully
understood the responsibilities and authorities delegated to them. For example,
on one occasion a CTO made informal promises to grantees or contractors—such
as approving the purchase of a car and the sending of people abroad for training—
without the prior approval of the Regional Contracting Officer. On another
occasion, a CTO exceeded her authority by discussing an extension of the due
date for a proposal with a grantee and asking the grantee to submit the proposal.
In these cases, the contracting office had to alter the CTOs’ actions.

In summary, when untrained CTOs do not perform their duties properly or on a
timely basis, the contract/grant officer or another contracting office staff member
must complete or correct the CTO’s work. Untrained CTOs might also act outside
the authorities delegated to them or inappropriately delegate some administrative
responsibilities to individuals who are not designated as CTOs. If CTOs are
expected to perform critical tasks efficiently and without errors, and if they will
be held accountable for performing these tasks (see the next section of this
report), they must be fully aware of their responsibilities and have the requisite
competencies to perform them. Therefore, we are making the following
recommendations.

       Recommendation No. 1: We recommend that USAID/Nepal
       monitor and maintain its training plans for all Cognizant
       Technical Officers in accordance with the Office of Federal
       Procurement Policy, Policy Letter No. 97-01 and Automated
       Directives System 202.3.1.2(c).

       Recommendation No. 2: We recommend that USAID/Nepal
       make arrangements for its Cognizant Technical Officers, who
       have not completed the two training courses, to attend the
       required certification training.


Did USAID/Nepal hold its Cognizant Technical Officers accountable for
performing their responsibilities in accordance with USAID policies and
regulations?

USAID/Nepal did not formally hold most of the CTOs tested accountable for
performing their CTO-related responsibilities because key personnel records


                                                                                10
(such as position descriptions, evaluations, etc.) generally did not refer to those
responsibilities. Contrary to federal and USAID guidance, the Mission did not
establish performance measures for critical CTO tasks. Position descriptions,
annual work plans, or annual work objectives did not, in most cases, include CTO
duties and responsibilities. As a result, CTOs were not evaluated on how well
they performed their CTO duties. Furthermore, the Mission did not ensure that
office chiefs or others who evaluated the performance of individual CTOs
contacted knowledgeable contracting office staff for input on the CTO’s
performance. The importance of building accountability into the evaluation
process for CTOs is further addressed below.

Mission Needs to Evaluate
Cognizant Technical Officer Performance

Even though CTOs play a critical role in the acquisition and assistance processes,
USAID/Nepal did not formally hold most of the CTOs tested accountable for
performing their responsibilities. This occurred because more emphasis was
placed on an individual’s program management skills and performance than on
his or her CTO competencies and performance. As a result, USAID/Nepal lacked
proper measures to hold people accountable for properly performing the critical
tasks that help ensure contractor and grantee compliance with contractual and
administrative requirements.

According to the U.S. Office of Personnel Management, performance
management is the systematic process of planning work, setting expectations,
continually monitoring performance, developing the capacity to perform,
periodically rating performance in a summary fashion, and rewarding good
performance. A critical element of this process, therefore, is the establishment of
performance expectations for critical tasks that can later be evaluated.

USAID policies require that the performance of USAID’s employees and personal
services contractors be evaluated.

•   USAID's Automated Directives System, Chapter 462 requires supervisors to
    work with U.S. direct hire employees to develop annual employee
    performance plans that contain work objectives and performance measures for
    critical tasks against which actual performance will be compared.

•   The Foreign Affairs Handbook, 3-FAH-2 H-400, requires USAID to prepare
    position descriptions for foreign service national employees, which will serve
    as the basis for performance evaluations.

•   The Foreign Affairs Manual, 3 FAM 7260, states that personal services
    contracts with host country nationals or third country nationals must conform
    to requirements for foreign service national employees.



                                                                                11
In each case, performance elements and standards should be measurable,
understandable, verifiable, equitable, and achievable.

As of April 2003, 13 individuals, working under different employment
mechanisms at USAID/Nepal, were designated as CTOs. Most of these
individuals were also responsible for the programmatic and administrative
management of a USAID activity.

Although different personnel policies regulate the performance evaluation of
CTOs in different employment categories, there is an underlying requirement that
all employees should be evaluated on the actual duties they are expected to
perform. As Table 2 below illustrates, individuals serving as CTOs at
USAID/Nepal reported that they generally spent a significant portion of their
workday on CTO-related tasks.

Table 2: Percentage of Time CTOs Reported in the OIG Questionnaire as
Spending on CTO Tasks.


    Percentage of Time Spent on CTO Tasks          Number of Responses

                1 - 25%                                   5
                26 - 50%                                  3
                51 - 75%                                  4
                76 – 100%                                 1
                Total Responses                          13


However, despite the importance of and the amount of time spent on CTO-related
activities, five of six CTOs’ personnel records did not have work plans,
statements of work, or work objectives that clearly delineated the scope of and
standard of performance expected for their CTO responsibilities. Of these five
CTOs:

•   Four had work objectives that focused on their responsibilities as advisor,
    strategist, USAID representative, or activity implementer. Also, their
    performance evaluations made little or no reference to their CTO
    responsibilities.

•   One local national personal services contractor had no employee work
    objectives documented at all.

Additionally, the Mission did not ensure that individuals who prepared
performance evaluations for CTOs solicited comments from the individuals who
were most likely to have information on the performance of CTO tasks—staff in



                                                                             12
                 the contracting office. Although USAID/Nepal encouraged supervisors of CTOs
                 who were foreign national employees and personal services contractors to obtain
                 and consider comments from a variety of sources—including employee self-
                 assessments, peers, recipients, members of strategic objective teams, and
                 subordinates—supervisors were not specifically required to solicit comments
                 related to the performance of CTO tasks. As a result, supervisors did not ask for
                 feedback from the contracting office.

                 USAID/Nepal not only gave greater weight to program management
                 competencies than to contract/grant administration competencies when evaluating
                 CTO performance, but also when hiring CTOs. Position descriptions for U.S. and
                 foreign national personal services contractors stressed the need for education and
                 experience in the areas of economic growth, health and family planning,
                 education, agriculture, environment and natural resources management, and
                 hydropower development. Two personal services contractors stated that, when
                 they were hired, they did not understand that their positions would include CTO-
                 related responsibilities.

                 CTOs play a significant role in the successful and efficient implementation of the
                 contracts and grants through which USAID expects to achieve its program goals.
                 Therefore, it is important that CTOs are not only aware of and qualified to
                 perform their CTO tasks (see preceding section), but are also held accountable for
                 the execution of these tasks. The accountability of CTOs could be improved if
                 USAID/Nepal implemented the following recommendations.

                        Recommendation No. 3: We recommend that USAID/Nepal
                        incorporate Cognizant Technical Officer duties and
                        responsibilities into the position descriptions, work objectives,
                        and statements of work of each individual designated to serve as
                        a Cognizant Technical Officer.

                        Recommendation No. 4: We recommend that USAID/Nepal
                        supervisors solicit comments on each Cognizant Technical
                        Officer’s performance of Cognizant Technical Officer tasks from
                        the Contracting Office, and other pertinent sources, as part of
                        each Cognizant Technical Officer’s periodic performance
                        evaluation.



Management       In response to our draft audit report, USAID/Nepal provided written comments
Comments and     that are included (without attachments) as Appendix II to this report.
Our Evaluation
                 Based on those comments, final actions have been taken for all four
                 recommendations and they can be considered closed upon report issuance.




                                                                                                13
Regarding Recommendation No. 1, USAID/Nepal provided an updated Mission
Training Order 270 and an updated Mission-wide training plan for fiscal year
2004. The updated training order formally establishes a system to ensure that
training plans are prepared, maintained, and monitored for all Mission employees
including CTOs. For example, it requires that a training committee review,
monitor and approve training plans. Similarly, it designates the Mission’s human
resources officer as the training coordinator responsible for providing (1) training
plan updates, (2) information on training opportunities, and (3) career
development counseling. Therefore, final action has been taken on this
recommendation.

Regarding Recommendation No. 2, USAID/Nepal provided evidence that its
CTOs have or will complete the two courses required for CTO certification. For
example, the Mission sponsored both courses: one in June 2002 and the other in
July 2003. As a result of the July 2003 course, eight of the Mission’s CTOs have
completed both of the required courses. The Mission stated that the remaining
three affected CTOs will take the courses they need to achieve CTO certification
in July 2004. Therefore, final action has been taken on this recommendation.

Regarding Recommendation Nos. 3 and 4, USAID/Nepal issued Mission Notice
Number 03-23 on October 8, 2003. This notice provides guidance to supervisors
and employees regarding CTO work objectives, evaluations, and official files.
The notice states that supervisors are to ensure that CTO duties and
responsibilities are adequately reflected in work statements and that an
employee’s work objectives include an objective for CTO responsibilities.
Additionally, the notice reminds supervisors that when evaluating CTO
performance, input from the contracting office is crucial and should be
incorporated into a CTO’s evaluation. Based on the Mission’s commitment
outlined in the notice, final action has been taken on these two recommendations.




                                                                                 14
                                                                                      Appendix I


Scope and     Scope
Methodology
              The Regional Inspector General/Manila conducted this audit in accordance with
              generally accepted government auditing standards. This audit was designed to
              answer the following questions: (1) Did USAID/Nepal provide adequate training
              and guidance to its Cognizant Technical Officers (CTOs) to help ensure that they
              were aware of and capable of performing their responsibilities? (2) Did
              USAID/Nepal hold its CTOs accountable for performing their responsibilities in
              accordance with USAID policies and regulations? The audit fieldwork was
              conducted in Kathmandu, Nepal from April 21 through May 1, 2003.

              In performing the audit, we obtained an understanding of and assessed the
              following management controls: (1) identification of the tasks to be performed by
              CTOs, (2) identification of training needed by CTOs, (3) provision of training to
              CTOs, (4) establishment of work objectives and performance measures for CTOs,
              and (5) evaluation of CTO performance. We interviewed CTOs, their supervisors,
              mission contracting staff, mission officials, recipients, the regional legal advisor,
              and the regional contracting officer. In addition, we reviewed pertinent employee-
              related documentation such as individual training plans covering fiscal year 2003
              and employee evaluations covering calendar years 2001 and 2002.

              Methodology

              To answer both audit objectives we reviewed applicable laws and regulations as
              well as USAID policies and procedures. In addition, we administered a
              questionnaire to all 13 individuals who had been designated as CTOs by
              USAID/Nepal as of April 2003. Through the questionnaire, we obtained
              information on their background, training, and experience in performing CTO
              tasks. All 13 CTOs returned the questionnaire, but each may not have answered
              every question.

              In addition to distributing the questionnaire and analyzing responses, we
              judgmentally selected 5 of the 13 CTOs to interview. We also interviewed their
              supervisors, mission contracting staff, other mission officials, recipients, and the
              regional legal advisor. The interviews provided us with an understanding of how
              CTOs performed their tasks and their level of understanding of what was expected
              of them.

              Finally, we reviewed pertinent employee evaluation documents such as position
              descriptions, work objectives, and statements of work for six CTOs. We analyzed
              these documents to determine if work plans, statements of work, or work




                                                                                               15
objectives adequately delineated the scope and expected standards for
performance of their CTO duties.

We did not develop materiality thresholds for the audit objectives.




                                                                      16
                                                                                          Appendix II

Management
Comments

MEMORANUDM

TO            :       Mr. Bruce N. Boyer, RIG/Manila

FROM          :       Kris Smathers, Controller, USAID/Nepal / s /

DATE          :       Thursday, December 11, 2003

SUBJECT       :       Audit of USAID/Nepal’s Training, Use and Accountability of
                      Cognizant Technical Officers (CTOs)
                      Audit Report No. 5-367-03-00X-P

REFERENCE:            1. Memo from RIG/Manila to USAID/Nepal’s Director dated 10/30/03

Presented below is the Mission’s management response to the following recommendations under draft
Audit Report No. 5-367-03-00X-P.

Recommendation No. 1: We recommend that USAID/Nepal monitor and maintain its training plans
for all Cognizant Technical Officers in accordance with the Office of Federal Procurement Policy
Letter No. 97-01 and Automated Directives System 202.3.1.2(c).

Management Comment:
USAID/Nepal has a Training Committee in place that reviews, monitors and approves the Mission’s overall
training plan. The training plan is prepared at the beginning of each fiscal year and covers the entire
Mission staff including Cognizant Technical Officers. The Mission’s Human Resources Officer, as the
designated Training Coordinator is responsible for coordinating the updates of the Mission’s overall
training plan, providing information on training opportunities, and providing career development
counseling. The updated Mission Training Order 270 and the current Mission training plan for FY 04 are
included as Attachments 1 and 2 respectively.

Based on the above, USAID/Nepal believes that this audit recommendation has been addressed, and
requests that this recommendation be closed prior to issuance of the final audit report.

Recommendation No. 2: We recommend that USAID/Nepal make arrangements for its Cognizant
Technical Officers, who have not completed the two training courses, to attend the required
certification training.




                                                                                                    17
Management Comment:
Training and career development is an on going activity. The Mission sponsored the two required CTO
courses (Assistance and Acquisition) at post in June 2002 and in July 2003 respectively. As a result, the
majority of the Mission’s CTOs received the opportunity to be CTO trained and certified.

The following is the current status of CTO training for the thirteen individuals designated as CTOs by
USAID/Nepal at the time of the CTO Audit:

a)   Eight CTOs have completed both the Acquisition and Assistance courses for certification as CTOs.
b)   One CTO has taken the Acquisition course at post from July 21 to 25, 2003 but is leaving USAID in
     January 2004. Therefore, the Mission will not be funding the remaining CTO course for this
     employee.
c)   One CTO has taken the Acquisition course at USAID/Combodia from October 6 to 10, 2003 and will
     be taking the Assistance course at USAID/Washington in July 2004.
d)   Two CTOs will be taking both of the required CTO courses at USAID/Washington in July 2004.
e)   The one Foreign Service Officer designated as a CTO departed post in July 2003. The Mission did not
     fund any CTO courses for this employee.

The list of the thirteen CTOs and their CTO course attendance is included as Attachment 3 for your
reference.

Per the above, USAID/Nepal believes that adequate arrangements have been made for Mission CTOs to
complete the required certification training, and requests that this recommendation be closed prior to
issuance of the final audit report.

Recommendation No. 3: We recommend that USAID/Nepal incorporate Cognizant Technical
Officer duties and responsibilities into the position descriptions, work objectives, and statements of
work of each individual designated to serve as a Cognizant Technical Officer.

Recommendation No. 4: We recommend that USAID/Nepal supervisors solicit comments on each
Cognizant Technical Officer’s performance of Cognizant Technical Officer tasks from the
Contracting Office, and other pertinent sources, as part of each Cognizant Technical Officer’s
periodic performance evaluation.

Management Comment:
In order to address the concerns raised by audit recommendations 3 and 4, the Mission issued Mission
Notice 03-23 on 10/08/03 to provide guidelines to Mission staff regarding CTO Work Objectives,
Evaluations, and File Documentation. Mission Notice 03-23 is included as Attachment 4 for your
reference.

In anticipation of the upcoming Computer Aided Job Evaluation (CAJE) exercise, supervisors have been
advised to ensure that CTO duties and responsibilities are adequately reflected in the work statements
(position descriptions) and work objectives of each individual designated to serve as a CTO.




                                                                                                       18
As stated in the Mission Notice, supervisors have been reminded that it is crucial to obtain inputs from
the contracts office when evaluating staff who have CTO job responsibilities.

Based on the above, USAIDNepal believes that adequate steps have been taken to address Audit
Recommendation Nos. 3 & 4, and requests that these recommendations be closed prior to issuance of the
final audit report.

In summary, USAID/Nepal would like to thank RIG/Manila for their input and support during this audit.
Per RIG’s feedback, the Mission has taken the above steps to improve the Mission’s training, use and
accountability of our Cognizant Technical Officers.


Attachment:    As stated


Cleared by:    K. Paudel, HRO (Cleared in draft)

Drafted by:    R. R. Singh, FA______________

Copy to:       M. Sampson, EXO
               D. Clark, Mission Director




                                                                                                       19
